           Office Of Inspector General




December 20, 2004

WILLIAM T. JOHNSTONE
SECRETARY OF THE BOARD OF GOVERNORS

SUBJECT:         Transmittal of Audit Report – Postal Service Board of Governors’ Travel
                 and Miscellaneous Expenses for Fiscal Year 2004
                 (Report Number FT-AR-05-004)

This report presents the results of our audit of the Board of Governors’ travel and
miscellaneous expenses for fiscal year 2004 (Project Number 04XD013FT000). We
conducted the audit in response to a Board of Governors’ resolution requiring annual
audits of its travel and miscellaneous expenses.

Our audit disclosed the Office of the Board of Governors’ travel and miscellaneous
expenses, which totaled approximately $193,000, and external professional fees, which
totaled approximately $41,000, for the year ended September 30, 2004, were properly
supported and complied with Postal Service policies and procedures and Board of
Governors guidelines. The results of the audit were discussed with Postal Service
management on November 1, 2004. Because there were no recommendations
provided, management chose not to respond to this report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you wish to further discuss the contents of this report or have any questions, please
contact John E. Cihota, Director, Financial Statements, or me at (703) 248-2300.


/s/ John M. Seeba

John M. Seeba
Assistant Inspector General
 for Audit

Attachment

cc: Richard J. Strasser, Jr.
    Lynn Malcolm
    Stephen J. Nickerson
    Margaret A. Weir
    Steven R. Phelps

   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
Postal Service Board of Governors’ Travel and                                       FT-AR-05-004
 Miscellaneous Expenses for Fiscal Year 2004


                                    INTRODUCTION
 Background                     The Postal Reorganization Act of 1970, as amended,
                                established the Office of the Board of Governors (the
                                Board), comprising the Postmaster General, Deputy
                                Postmaster General, and nine Governors appointed by the
                                President. As of September 30, 2004, the Board consisted
                                of the Postmaster General, Deputy Postmaster General,
                                and six Governors.

                                The Board directs and controls the expenditures of the
                                Postal Service, reviews its practices and policies, and
                                establishes objectives and goals in accordance with
                                Title 39, United States Code. On July 8, 1986, the Board
                                passed Resolution Number 86-12, which requires annual
                                audits of the Board of Governors’ travel and miscellaneous
                                expenses.

                                The Board of Governors generally meets monthly in
                                Washington, D.C., or other locations where members can
                                visit Postal Service facilities or large mailer operations. In
                                fiscal year (FY) 2004 the Board held 11 regular meetings, in
                                addition to committee meetings. For the year ended
                                September 30, 2004, the Board incurred approximately
                                $193,000 in travel and miscellaneous expenses and
                                approximately $41,000 in external professional fees.

 Objective, Scope, and          The objective of the audit was to determine whether the
 Methodology                    travel and miscellaneous expenses incurred by the Board
                                were properly supported and complied with Postal Service
                                policies and procedures and Board of Governors’
                                guidelines.

                                To accomplish our objective, we conducted fieldwork from
                                April through November 2004. The criteria used in our
                                evaluation were the Board’s Guidelines Relating to
                                Governors' Official Expenses, effective January 1, 1998,
                                and Postal Service travel policies and procedures. We
                                reviewed all 149 travel and miscellaneous expense
                                vouchers submitted by the Board during FY 2004. We also
                                reviewed all professional fees paid to outside firms at the
                                request of the independent public accountant, Ernst &
                                Young LLP.

                                This audit was conducted from April through
                                December 2004 in accordance with generally accepted


                                                1
Postal Service Board of Governors’ Travel and                                      FT-AR-05-004
 Miscellaneous Expenses for Fiscal Year 2004


                                government auditing standards, and included such tests of
                                internal controls, accounting records, and other auditing
                                procedures as were considered necessary. Our tests of
                                controls were limited to those necessary to achieve our
                                audit objectives. Our procedures were not designed to
                                provide assurance on internal controls. Consequently, we
                                do not provide an opinion on such controls. We discussed
                                our observations and conclusions with appropriate
                                management officials and included their comments, where
                                appropriate.

                                We relied on computer-generated data from Postal
                                Service’s financial accounting systems, specifically, the
                                Accounts Payable Accounting and Reporting System II
                                (APARS II). We performed specific internal control
                                transaction tests on this system’s data, to include tracing
                                selected financial information to supporting source
                                documentation. For example, we verified that payments
                                recorded in APARS II were supported by payment
                                authorizations and the amounts were properly applied to the
                                appropriate general ledger accounts.

 Prior Audit Coverage           We have audited the Board’s travel and miscellaneous
                                expenses for each fiscal year since FY 1998 and have not
                                identified any reportable conditions. The results of our most
                                recent audit for FY 2003 were disclosed in our report, Postal
                                Service Board of Governors’ Travel and Miscellaneous
                                Expenses for Fiscal Year 2003 (Report
                                Number FT-AR-04-004, dated January 15, 2004).

 Audit Results                  Our audit disclosed that travel and miscellaneous expenses
                                totaling approximately $193,000, and external professional
                                fees of about $41,000, which the Board incurred in the year
                                ended September 30, 2004, were properly supported and
                                complied with the Board of Governors’ guidelines and
                                Postal Service policies and procedures.

 Management’s                   The results of the audit were discussed with Postal Service
 Comments                       management on November 1, 2004. Because there were
                                no recommendations provided, management chose not to
                                respond to this report.

 Evaluation of                  No action by management was required.
 Management’s
 Comments



                                                2
